  DEPARTMENT OF HOMELAND SECURITY

   Ofﬁce of Inspector General

Evaluation of TSA’s Contract for the Installation
   and Maintenance of Explosive Detection
     Equipment at United States Airports




       Ofﬁce of Audits
OIG-04-44     September 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is my hope that
this report will result in more effective, efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Clark Kent Ervin
                                              Inspector General
                                                                                                                             Contents

Introduction .......................................................................................................................................... 3

Results in Brief .................................................................................................................................... 3

Background .......................................................................................................................................... 5

Review Results..................................................................................................................................... 6

Contract Administered as a Cost-Plus-A-Percentage-Of-Cost Contract ............................................. 7

Untimely and Improper Award Fee Plan.............................................................................................. 8

Excessive Proﬁt.................................................................................................................................... 9

Recommendations .............................................................................................................................. 12

Management Comments and OIG Evaluation ................................................................................... 12


Appendices

     Appendix 1:                  Schedule of Contractor Invoices ..................................................................... 15
     Appendix 2:                  Purpose, Scope, and Methodology.................................................................. 16
     Appendix 3:                  Management Comments ................................................................................. 17
     Appendix 4:                  Major Contributors to this Report ................................................................... 22
     Appendix 5:                  Report Distribution ......................................................................................... 23


Abbreviations

     AMS                          Acquisition Management System
     DHS                          Department of Homeland Security
     EDS                          Explosives Detection Systems
     ETD                          Explosives Trace Detection
     FAA                          Federal Aviation Administration
     FAR                          Federal Acquisition Regulation
     OIG                          Ofﬁce of Inspector General
     TSA                          Transportation Security Administration


      Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment                                             Page 1
                                            at United States Airports
Contents




Page 2   Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment
                                               at United States Airports
                                                                                                 Contents

Introduction

                        As part of its review of the federalization of airport security screeners and the
                        management of major Department of Homeland Security (DHS) procurements,
                        the Ofﬁce of the Inspector General (OIG) reviewed DHS’ contract with the
                        Boeing Service Company (Boeing). The contract was designated as a cost-
                        plus-award-fee type contract, primarily for the installation and maintenance
                        of explosive detection equipment at commercial airports in the United States.
                        Issues arose as to whether the contract was properly administered as a cost-
                        plus-award-fee-contract and whether the level of proﬁts paid to Boeing was
                        reasonable.

                        Our ﬁeldwork began in April 2003 and continued through March 2004 at TSA’s
                        Pentagon City and Herndon ofﬁces. A more detailed description of our objective,
                        scope, and methodology is provided as Appendix B.

Results in Brief
                        TSA did not follow sound contracting practices in awarding and administering
                        the Boeing contract for the installation and maintenance of explosive detection
                        equipment. Speciﬁcally:

                              1.   Until December 2003, TSA paid contract fees based on a percentage
                                   of total invoiced costs, which had the effect of creating a cost-plus-a-
                                   percentage-of-cost type contract. This type of contract is prohibited in the
                                   federal government.

                              2.   The contract did not contain an award fee determination plan to evaluate
                                   Boeing’s performance periodically until December 2003, eighteen
                                   months after the contract award, and it included cost increases unrelated
                                   to approved scope changes in the calculation of the award fee pool.




   Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment   Page 3
                                         at United States Airports
                       Through December 2003, TSA had paid more than $44 million in
                       provisional award fees without any evaluation of Boeing’s performance.

                  3.   The proﬁt paid to Boeing was disproportionately high when compared
                       to Boeing’s cost and risk and compared to what other agencies allow as
                       proﬁt under such contracts. Based on these factors, we concluded that
                       TSA paid Boeing at least $49 million in excess proﬁt.

            We are recommending that TSA:

                  1.   Modify the contract to avoid even the appearance that it is a cost-plus-a-
                       percentage-of-cost type contract;

                  2.   Amend the award fee plan in the contract to ensure that the award
                       fee pool does not include cost increases unrelated to approved scope
                       changes;

                  3.   Evaluate Boeing’s past performance based on the award fee plan and, if
                       warranted, adjust the award fee accordingly; and

                  4.   Recoup any unreasonable fees paid under the contract.

            TSA provided written comments on a draft of this report. While TSA recognized
            the shortfalls that exist in the administration of this contract, they took exception
            with our ﬁnding that the proﬁt paid to Boeing was unreasonable. TSA does not
            plan to recoup any fees already awarded other than those fees associated with cost
            growth. As a result of our audit work and TSA’s comments, we have added an
            additional recommendation. We are recommending that TSA:

                  5.   Develop guidance for the determination of reasonable base and award
                       fees on cost-plus-award-fee-contracts.

            We incorporated TSA’s comments into our report and included a copy of the
            comments as Appendix C. TSA has not yet had an opportunity to comment
            on recommendation 5. We ask that TSA submit their comments on this
            recommendation with their action plan responding to this report.




Page 4   Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment
                                               at United States Airports
Background
                                 The Aviation and Transportation Security Act (P.L. 107-71) created TSA and
                                 made certain fundamental changes in the way transportation security would
                                 be performed and managed in the United States. One signiﬁcant change was
                                 to exempt TSA from the Federal Acquisition Regulations (FAR) and most
                                 procurement laws. Instead, TSA was required to use the Federal Aviation
                                 Administration’s (FAA) Acquisition Management System (AMS), which was
                                 designed to provide for more timely and cost effective acquisitions.

                                 In April 2003, we began reviews of the management of major DHS procurements
                                 and of the acquisition process used by TSA to award and administer contracts
                                 related to the federalization of airport security screeners. As part of this larger
                                 effort, we selected for review a contract awarded on June 7, 2002, to Boeing.
                                 Notwithstanding the above exemption, TSA developed the Boeing contract using
                                 the FAR as its regulatory baseline.

                                 This contract was primarily for the installation and maintenance of approximately
                                 1,100 Explosives Detection Systems (EDS) and up to 6,000 Explosives Trace
                                 Detection (ETD) devices at 429 commercial airports in the United States. The
                                 contract was identiﬁed as a cost-plus-award-fee type contract with a base
                                 performance period of seven months, which was to end on December 31,
                                 20021. TSA estimated the value of the contract to be about $508 million during
                                 the base performance period, and more than $1.3 billion if TSA exercised all
                                 ﬁve of the one year option periods provided for in the contract. The contract
                                 was structured to allow Boeing to function as the project manager responsible
                                 for overseeing its subcontractors who have performed about 92% of the work
                                 requirements.

                                 As of December 2003, TSA had modiﬁed this contract 54 times. Among other
                                 things, TSA extended the base performance period an additional 18 months to
                                 June 2004 and increased the base performance estimated value to $1.2 billion.

                                 This report and its recommendations are limited to issues related to contract fees
                                 and proﬁt.



1
 The Aviation and Transportation Security Act required all United States airports that regularly serviced air carriers to have sufﬁcient EDS to screen all
checked baggage no later than December 31, 2002.



      Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment                                          Page 5
                                            at United States Airports
Review Results
                               TSA did not follow sound contracting practices in awarding and administering
                               the Boeing contract. TSA described the contract type as cost-plus-award-
                               fee. Such contracts establish maximum base and award fees expressed as set
                               amounts, which may be based on percentages of an established fee pool, typically
                               the original contract cost estimate. The original contract expressed base fee
                               and award fee as percentages but did not speciﬁcally ﬁx either fee pool to a set
                               amount. The original contract included a potential penalty of a 2% reduction to
                               the base fee if TSA determined Boeing failed to substantially meet the established
                               contract performance objectives in the base contract performance period. The
                               base contract performance period has expired with no penalties being assessed.
                               Through December 2003, TSA paid both base and award fees as a percentage of
                               total invoiced costs, which, if not adjusted, has the effect of creating a prohibited
                               cost-plus-a-percentage-of-cost contact.

                               Because of the rapidity with which the contract was awarded, interim award fee
                               payments were provided for, subject to later increase or repayment based on a
                               yet to be established award fee plan and related evaluations. However, the award
                               fee determination plan for periodically evaluating Boeing’s performance was
                               not added to the contract until December 2003, and that award fee plan included
                               cost increases unrelated to approved scope changes in the calculation of the
                               award fee pool. TSA paid Boeing $44 million in award fees without conducting
                               performance evaluations, thus reducing whatever motivational effects such an
                               award fee might have had. In fact, TSA did not assess contractor performance
                               during calendar year 2002 until January 2004, and TSA did not complete the
                               contractor performance assessment for the bulk of work performed during
                               calendar year 2003 until August 20042.

                               Further, based on an analysis of the rates set by other federal agencies as
                               acceptable for cost-plus-award-fee type contracts, the amount of risk assumed
                               by Boeing, and the reasonableness of Boeing’s cost to fee ratio, we concluded
                               that the amount of proﬁt TSA paid Boeing was disproportionately high. For
                               example, TSA paid at least $49 million more than would have been allowed under
                               guidelines followed by other agencies we contacted.


2
    A residual amount of work performed during calendar year 2003 was not yet evaluated as of September 8, 2004.




Page 6                     Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment
                                                                 at United States Airports
                             Contract Administered as a Cost-Plus-A-Percentage-Of-Cost Contract

                             Until August 2003, TSA administered the Boeing contract as if it were a cost-
                             plus-a-percentage-of cost contract. Boeing generally invoiced TSA bimonthly,
                             with each invoice showing reimbursable cost, a base fee, and an award fee. Using
                             the pre-determined rates included in the contract for the base and award fees of
                             8% and 5.6%,3 respectively, TSA calculated and paid the fees in direct proportion
                             to the increased costs. Boeing invoiced and TSA approved payment of $889
                             million since the contract’s inception, which included base and award fees of an
                             estimated $106 million.

                             A contract is considered a cost-plus-a-percentage-of-cost type contract when:
                             (1) a pre-determined percentage rate is applied to actual performance cost;
                             (2) payment is on a pre-determined percentage rate; (3) Boeing’s entitlement
                             increases commensurately with increased performance costs; and, (4) Boeing’s
                             fee entitlement is uncertain at the time of contracting. Cost-plus-a-percentage-of-
                             cost contracts are prohibited by 41 U.S.C. 254(b). This prohibition is reinforced
                             in both the FAR and the FAA’s AMS.

                             Additionally, the contract value was not certain at the time of the contract’s
                             inception. The contract base period ceiling grew from $508 million to more than
                             $1.2 billion over an eighteen-month period. While TSA extended the base period
                             of performance from seven months to eighteen months, it made no signiﬁcant
                             changes to the contract scope of work. Because of the uncertainty surrounding
                             the contract requirements, the contract contained a clause that allowed Boeing to
                             make adjustments to the pricing baseline. Boeing made several changes using
                             this clause, and TSA attributes approximately $100 million of the contract’s cost
                             increase to these uncertainties. TSA said that they are reconciling the difference
                             between the $508 million contract award value to the current value to identify
                             scope growth versus cost overruns.

                             The contracting ofﬁcer’s representative said that TSA paid provisional fees
                             subject to the results of the evaluations and the reconcilement discussed
                             above. Should the reconcilement indicate cost overruns due to poor contract
                             management, TSA intends to adjust the award and base fee amounts accordingly.



3
  Contract clause H-23 limited TSA’s interim payment of the award fee to the lesser of 80% or the prior period’s evaluation score. Since
TSA did not periodically evaluate Boeing’s performance, interim payments were limited to 80% of the award fee rate, i.e., 7% award fee
times 80% = 5.6% billing rate.



     Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment                            Page 7
                                           at United States Airports
                                Untimely and Improper Award Fee Plan

                                The contract did not contain an award fee determination plan to evaluate Boeing’s
                                performance periodically until December 2003, eighteen months after the contract
                                award, and it included cost increases unrelated to approved scope changes in the
                                calculation of the award fee pool. Through December 2003, TSA had paid more
                                than $44 million in provisional award fees without any evaluation of Boeing’s
                                performance.

                                A cost-plus-award-fee contract is a cost-reimbursement contract4 that provides
                                for a fee consisting of: (1) a base amount ﬁxed at inception of the contract; and,
                                (2) an award amount that the contractor may earn in whole or in part during
                                performance. The award fee should be sufﬁcient to motivate the contractor
                                to excel in such areas as quality, timeliness, technical ingenuity, and cost
                                effectiveness. Contractor performance under cost-plus-award-fee contracts is
                                evaluated at pre-determined intervals during performance so that the contractor
                                can be made aware of the quality of its performance and the areas in which
                                improvement is expected. Partial fee payments generally correspond to the
                                evaluation periods. These periodic payments are intended to motivate the
                                contractor to improve poor performance or to continue good performance.

                                The amount of the award fee to be paid is determined by the government’s
                                judgmental evaluation of the contractor’s performance in terms of the criteria
                                included in the contract. This determination and the methodology for determining
                                the award fee are unilateral decisions made solely at the discretion of the
                                government.

                                Clause H.23 of the contract, “Interim Award Fee Payment,” provided for
                                bimonthly interim payments. The clause also allowed TSA to discontinue or
                                reduce future interim award fee payments to Boeing if TSA determined, based
                                on an award fee evaluation, that payments exceeded the amount that Boeing had
                                earned during the evaluation period. The original contract did not contain an
                                award fee plan to provide for periodic award fee evaluations or criteria for judging
                                Boeing’s performance. The contract contained only a statement that it was
                                anticipated that an award fee plan would be in place prior to initiation of work in
                                order for Boeing to know the applicable criteria and weightings.




4
    Cost-reimbursement contract types provide for payment of allowable incurred costs, to the extent prescribed in the contract.



Page 8                      Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment
                                                                  at United States Airports
                            TSA did not develop an award fee plan until December 2003, eighteen months
                            after contract award, and it included cost increases unrelated to approved scope
                            changes in the calculation of the award fee pool. As of December 2003, TSA
                            had paid provisional award fees to Boeing, totaling $44 million. In January
                            2004, TSA evaluated Boeing’s performance for calendar year 2002 against the
                            criteria established in the award fee plan and based on Boeing’s self-assessment.
                            That evaluation resulted in Boeing receiving a total fee of 13.6% on total costs
                            incurred, which included the 8% base fee and 80% of the potential 7% award fee.

                            TSA’s failure to negotiate or impose an award fee plan timely, while paying
                            Boeing the interim award fee, reduced whatever motivational effect the award fee
                            might have created.

                            Excessive Proﬁt

                            The proﬁt paid to Boeing was disproportionately high when compared to Boeing’s
                            cost and risk and compared to what other agencies allow as proﬁt under such
                            contracts. Based on these factors, we concluded that TSA paid Boeing at least $49
                            million in excess proﬁt.

                            Neither the United States Code, the FAR, nor the FAA’s AMS set limits on the
                            fee or proﬁt rates for cost-plus-award-fee contracts. However, several factors
                            are instructive in making such a determination. These factors include, but are
                            not limited to, the rates other federal agencies set as acceptable for cost-plus-
                            award-fee type contracts, the amount of risk assumed by the contractor, and the
                            reasonableness of the contractor’s cost to fee.

                            Other Agency Guidelines. A review of six other federal agencies’5 guidance and
                            FAR supplements showed that they used one of two methods to set acceptable
                            limits on the amount of fee or proﬁt for cost-plus-award-fee contracts. One
                            method, followed by all six agencies, was to limit the base fee to 3% of cost,
                            excluding award fees. The other method was to limit the base plus award fee to a
                            maximum of 10%.

                            We calculated what would have been the allowable proﬁt using the above two
                            methods. Our calculations showed that TSA paid Boeing at least $49 million




5
 The Department of Health and Human Services, the Environmental Protection Agency, the National Aeronautics and Space
Administration, the Army, the Air Force, and the Navy.

     Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment                 Page 9
                                           at United States Airports
                             more in proﬁt than would have been allowed by those agencies. Details are as
                             follows:

                                   •     Method 1 - TSA set the base rate for this contract at 8%, more than
                                         double the maximum rate allowed by the six agencies surveyed. If TSA
                                         had limited Boeing’s base rate to 3%, Boeing would have been limited
                                         to $13 million.6 However, TSA did not ﬁx the base fee amount at the
                                         inception of the contract. Consequently, as Boeing’s costs more than
                                         doubled, the base fee continued to increase at the pre-determined rate.
                                         As of December 2003, TSA had approved $62 million in base fees,
                                         approximately $49 million more than it would have paid had it ﬁxed the
                                         base fee at 3% at the contract’s inception.

                                   •      Method 2 - TSA set the combined base and award fee rate for this
                                         contract at 15%, 5% more than allowed by those agencies that limit base
                                         and award fees to a total of 10%. If TSA had limited Boeing’s base and
                                         award fees to the maximum 10% allowed by those agencies, Boeing
                                         would have been limited to $44 million for the period expected to end
                                         December 31, 2002. The difference between the $44 million and the
                                         $106 million base and award fees paid to Boeing as of December 2003,
                                         would equate to excess fees of about $62 million.

                             Contractor’s Risk. Contracts are grouped into two broad categories: ﬁxed-
                             price and cost-reimbursement. Fixed-price type contracts place maximum
                             risk and responsibility for performance, cost, and resulting proﬁt or loss
                             upon the contractor. Conversely, cost-reimbursement type contacts minimize
                             the contractor’s risk and responsibility in the areas of performance and cost
                             control. Cost-plus type contracts further reduce the contractor’s risk because the
                             contractor’s proﬁt is generally assured.

                             TSA believes that Boeing’s risk was high, given the short performance period and
                             unstable environment in the early stages of TSA’s operations. However, based
                             on an analysis of key cost related factors, we concluded that Boeing’s risk was
                             minimal and the amount of proﬁt paid to Boeing was disproportionately high for
                             the risk assumed. First, this was a cost-reimbursement contract where Boeing
                             agreed to deliver only its “best efforts” to perform the requirements in return
                             for costs incurred, rather than guaranteeing to perform all contract terms and


6
 The base fee or proﬁt on cost-plus-award-fee contracts is to be ﬁxed at inception. Since the estimated cost for the base performance
period was about $442 million, the base amount should have been ﬁxed at $13.2 million, using a maximum base fee amount of 3%.



Page 10                  Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment
                                                               at United States Airports
                             conditions at a speciﬁed price and within a speciﬁed time period. Regardless
                             of performance results, Boeing would receive payment of all costs and a base
                             fee of at least 6%7, twice the maximum base fee allowed by the agencies we
                             surveyed. Additional factors affecting Boeing’s risk included: (1) TSA, not
                             Boeing, was responsible for procuring the explosive detection equipment that was
                             to be installed at the airports; (2) Boeing’s facility costs were nominal because
                             the bulk of the contracted services were to be performed at the 429 airports; (3)
                             TSA reimbursed Boeing for cost incurred under the contract and a pre-determined
                             amount of proﬁt bimonthly; and, (4) TSA indemniﬁed Boeing against losses
                             resulting from terrorist acts.

                             Reasonable Proﬁt. Boeing was responsible for carrying out the project
                             management requirements outlined in the contract; subcontractors were
                             responsible for all other work requirements. Boeing invoiced TSA for proﬁt
                             on all contract related costs, including the subcontractors’ cost. As the project
                             manager, Boeing incurred costs of about $39 million, or 5.9% of the total invoiced
                             costs, through August 2003. Yet, Boeing received about $82 million in proﬁt for a
                             rate of return of about 210%. In addition, since TSA paid Boeing proﬁt on all the
                             subcontractors’ cost, it ultimately paid Boeing proﬁt on the subcontractors’ proﬁt.

                             TSA’s Comments on Excessive Proﬁt. TSA believes the fee structure for this
                             contract is reasonable, given the competitive environment under which the
                             contract was let. Four contractors submitted proposals in competition for contract
                             award. TSA’s evaluation of the proposals determined that the Boeing offer was
                             the best value to the Government, technical and price factors considered. A
                             full evaluation of TSA’s selection process is beyond the scope of this review.
                             However, TSA’s cost/price analysis for this solicitation shows that both Boeing’s
                             proposed total cost and total fee as compared to total cost were substantially
                             higher than their competitors. Regardless of the competitive environment, TSA
                             should have negotiated a reasonable proﬁt with the winning bidder.

                             TSA also commented that procurement policies and regulations allow primary
                             contractor to earn fees on subcontractor costs. We do not disagree with TSA on
                             this point. However, the government has an obligation to enter into equitable
                             business deals, including the payment of a reasonable proﬁt for the goods or
                             services to be provided. In this case, TSA failed to meet that obligation.



7
 The 8% base fee provided for in the contract less a potential penalty of 2%, should Boeing fail to substantially meet the performance
objectives.



     Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment                           Page 11
                                           at United States Airports
Recommendations
              We recommend that TSA:

                    1.   Modify the fee terms of the contract to avoid even the appearance that it
                         is a cost-plus-a-percentage-of-cost contract;

                    2.   Amend the award fee pool in the contract to ensure that it does not
                         include cost increases unrelated to approved scope changes;

                    3.   Evaluate Boeing’s past performance on this contract to determine a
                         reasonable award fee; and

                    4.   Recoup any unreasonable fees paid under the contract.

                    5.   Develop guidance for the determination of reasonable base and award
                         fees on cost-plus-award-fee-contracts.



Management Comments and OIG Evaluation
              We obtained written comments (Appendix C) on a draft of this report from TSA.
              TSA commented that their position as a new agency with limited staff, demanding
              operational requirements, and an extremely tight performance schedule greatly
              contributed to the circumstances surrounding this contract. However, TSA
              recognized the shortfalls that exist in the administration of this contract and
              provided us additional information regarding the steps they have taken to
              remedy those shortfalls. TSA comments included some technical corrections
              and recommended changes that we have incorporated into the ﬁnal report. TSA
              also responded directly to each of the recommendations. Generally, TSA agreed
              with the report’s ﬁndings and recommendations, with the exception of the ﬁnding
              that the proﬁt paid to Boeing was unreasonable. Below is a summary of TSA’s
              responses to each recommendation and our assessment of the response.

              Recommendation 1: Reform the fee terms of the contract to avoid even the
              appearance that it is a cost-plus-a-percentage-of-cost contract.

              TSA agreed that the contract had the appearance of a cost-plus-a-percentage-of-
              cost type contract. TSA is currently pursuing a reconciliation of the contract that



Page 12    Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment
                                                 at United States Airports
                             will document the increased value of the contract due to changed requirements.
                             Upon completion of the reconciliation, the contract will be modiﬁed to reﬂect
                             consistent pricing. We agree with this course of action and recommend that TSA
                             expedite its effort. A description of the reconciliation process and milestones
                             for its completion should be included with TSA’s action plan to address the
                             recommendations in this report.

                             Recommendation 2: Amend the award fee pool in the contract to ensure that
                             it does not include cost increases unrelated to approved scope changes.

                             TSA noted that the contract reconciliation, currently underway, would determine
                             if cost growth contributed to the contract’s increased value. If so, TSA will
                             recover any corresponding award fee through subsequent payment deductions.
                             We agree with this course of action. TSA should include its plan for recovering
                             excessive award fee with the action plan to address the recommendations in this
                             report.

                             Recommendation 3: Evaluate Boeing’s past performance on this contract
                             to determine a reasonable award fee, and Recommendation 4: Recoup any
                             unreasonable fees paid under the contract.

                             TSA did not agree with Recommendations 3 and 4. TSA maintains that Boeing’s
                             risk was high for a cost-type contract and, therefore, the award fee structure
                             was reasonable, given the competitive market8 conditions and the challenging
                             environment associated with the rollout of explosive detection equipment. TSA
                             also stated that it had conducted an award fee evaluation for calendar year 2002,
                             and made a ﬁnal determination to pay Boeing 80% of the 7% award fee, bringing
                             the total fee paid for this evaluation period to 13.6% of total costs incurred.
                             Therefore, TSA does not plan to recoup any fees already awarded other than those
                             fees associated with cost growth.

                             TSA also took exception to statements in the report that compared Boeing’s
                             total project management costs with proﬁt, noting that allowance of fees on
                             subcontractor costs is permissible by procurement policies and regulations.
                             TSA further stated that the role of a general contractor was critical to meet the
                             Congressional mandate of ensuring 100% electronic screening by December 31,
                             2002. For the future, however, TSA developed a new procurement strategy that
                             eliminated the need for a general contractor.

8
  More than one competitor submitted independent proposals in response to the solicitation. The assumption is that the market determined
the contract’s price reasonableness.


     Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment                        Page 13
                                           at United States Airports
             We continue to disagree with TSA’s conclusion that Boeing’s risk was high and
             that the fee structure was reasonable. While fees on subcontractor costs are
             permissible, the practice is not always justiﬁed, especially when the general
             contractor does not bear the risk of subcontractor nonperformance. Further,
             we do not agree that the competitive environment was an adequate mechanism
             for determining a reasonable proﬁt percentage. TSA’s cost/price analysis for
             the solicitation showed that both Boeing’s proposed total cost and total fee
             as compared to total cost was substantially higher than their competitors. As
             the federal purchasing agency, TSA is responsible for ensuring that proﬁt is
             reasonable. We still maintain that TSA has not met its obligation to negotiate a
             reasonable proﬁt and recommend that TSA carefully evaluate the performance
             of Boeing when determining future award fees and consider the reasonableness
             of the fee awarded when compared to contractor performance. In response to
             this recommendation, TSA should provide us with copies of all future fee award
             assessments for this contract.


             Recommendation 5: Develop guidance for the determination of reasonable
             base and award fees on cost-plus-award-fee-contracts.

             TSA has not yet had an opportunity to comment on this recommendation. We
             ask that TSA include its comments on this recommendation with its action plan
             addressing this report. Based on audit work and TSA initial response to our draft,
             we believe TSA needs to deﬁne reasonable proﬁt levels for cost-plus-award-fee
             contracts. TSA’s guidelines should set standard risk assessment requirements and
             ﬁrm limits for both base and award fee proﬁt. We suggest that TSA look to the
             federal procurement community, such as the six agencies that we surveyed, for
             best practices in setting these guidelines.




Page 14   Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment
                                                at United States Airports
                                                                                                                                                              Invoice/Payments as of December 2003
                                                                                                                                                       Boeing Invoices ($ in Thousands)                              TSA Approved Payments ($ in Thousands)
                                                                                                                       Date                         Base Fee        Award Fee                                                      Award
                                                                                                         Invoice                       Cost                                            Total   Cumulative      Cost    Base Fee                 Total    Cumulative
                                                                                                                    Submitted                      8% of Cost      5.6% of Cost                                                      Fee
                                                                                                            1        07/03/02          $114             $9                $6           $129        $129        $114         $9        $6        $129         $129
                                                                                                            2        07/18/02          $144            $12                $8           $164        $293        $144        $12        $8        $164         $293
                                                                                                            3        07/31/02          $570            $46               $32           $648        $941        $570        $46       $32        $648         $941
                                                                                                            4        08/15/02          $517            $41               $29           $587       $1,528       $517        $41       $29        $587        $1,528
                                                                                                            5        08/26/02         $6,617          $529              $371          $7,517      $9,045      $6,617      $529      $371       $7,517       $9,045
                                                                                                            6        09/12/02         $9,418          $753              $527         $10,698     $19,743      $9,418      $753      $527      $10,698      $19,743
                                                                                                            7        09/26/02        $11,563          $925              $648         $13,136     $32,879     $11,563      $925      $648      $13,136      $32,879
                                                                                                            8        10/09/02        $12,484          $999              $699         $14,182     $47,061     $12,484      $999      $699      $14,182      $47,061
                                                                                                            9        10/24/02        $20,119         $1,610            $1,127        $22,856     $69,917     $20,119     $1,610    $1,127     $22,856      $69,917
                                                                                                           10        11/07/02        $19,801         $1,584            $1,109        $22,494     $92,411     $19,801     $1,584    $1,109     $22,494      $92,411
                                                                                                           11        11/21/02        $20,788         $1,663            $1,164        $23,615    $116,026     $20,788     $1,663    $1,164     $23,615     $116,026
                                                                                                           12        12/05/02        $41,118         $3,289            $2,303        $46,710    $162,736     $41,118     $3,289    $2,303     $46,710     $162,736
                                                                                                           13        12/19/02        $46,533         $3,723            $2,606        $52,862    $215,598     $46,533     $3,723    $2,606     $52,862     $215,598
                                                                                                           14        01/03/03        $64,605         $5,168            $3,618        $73,391    $288,989     $64,605     $5,168    $3,618     $73,391     $288,989
                                                                                                           15        01/25/03        $59,460         $4,757            $3,330        $67,547    $356,536     $59,460     $4,757    $3,330     $67,547     $356,536
                                                                                                           16        01/30/03         $9,372          $750              $525         $10,647    $367,183      $9,372      $750      $525      $10,647     $367,183
                                                                                                           17        02/13/03        $87,158         $6,973            $4,881        $99,012    $466,195     $87,158     $6,973    $4,881     $99,012     $466,195
                                                                                                           18        03/03/03        $12,379          $990              $693         $14,062    $480,257     $12,379      $990      $693      $14,062     $480,257
                                                                                                           19        03/13/03        $18,083         $1,447            $1,013        $20,543    $500,800     $18,083     $1,447    $1,013     $20,543     $500,800
                                                                                                           20        03/26/03        $35,994         $2,879            $2,016        $40,889    $541,689     $35,994     $2,879    $2,016     $40,889     $541,689
                                                                                                           21        04/14/03        $12,890         $1,031             $722         $14,643    $556,332     $12,890     $1,031     $722      $14,643     $556,332
                                                                                                           22        04/25/03        $42,200         $3,376            $2,363        $47,939    $604,271     $42,200     $3,376       $0      $45,576     $601,908
                                                                                                           23        05/08/03        $44,046         $3,524            $2,467        $50,037    $654,308     $44,046     $3,524       $0      $47,570     $649,478
                                                                                                           24        05/23/03        $24,407         $1,953            $1,367        $27,727    $682,035     $24,407     $1,953       $0      $24,660     $674,138




                                      at United States Airports
                                                                                                           25        06/18/03        $27,058         $2,165            $1,515        $30,738    $712,773     $27,058     $2,165       $0      $29,223     $703,361
                                                                                                           26        07/07/03        $18,277         $1,462            $1,024        $20,763    $733,536     $18,277     $1,462       $0      $19,739     $723,100
                                                                                                           27        07/16/03        $12,241          $979              $685         $13,905    $747,441     $12,241      $979        $0      $13,220     $736,320
                                                                                                           28        08/08/03        $46,960         $3,757            $2,630        $53,347    $800,788     $46.952     $3,757       $0      $50,709     $787,029
                                                                                                           29        08/21/03        $15,893         $1,271             $890         $18,054    $818,842     $15,893     $1,271       $0      $17,164     $804,193
                                                                                                           30        09/04/03         $9,420          $754              $527         $10,701    $829,543      $9,420      $754        $0      $10,174     $814,367
                                                                                                           31        09/17/03        $20,008         $1,601            $1,120        $22,729    $852,272     $19,640     $1,601       $0      $21,241     $835,608
                                                                                                           32        08/21/03        $15,123         $1,210             $847         $17,180    $869,452     $15,123     $1,210       $0      $16,333     $851,941
                                                                                                           331       08/21/03         $6,112          $489              $342          $6,943    $889,518      $6,112      $489      $647       $6,601     $858,542
                                                                                                           34        11/26/03        $11,552          $924              $647         $13,123    $889,518     $11,552      $924        $0      $13,123     $871,665
                                                                                                           35        12/12/03            Payment of Withheld Award Fee Invoices #22-#33         $889,518        $0          $0    $15,777     $15,777     $887,442
                                                                                                           36        12/12/03           Resubmission of Disallowed Amount in Invoice #24        $889,518      $1,700        $0        $0       $1,700     $889,142
                                                                                                           37        12/12/03           Resubmission of Disallowed Amount in Invoice #28        $889,518        $8          $0        $0         $8       $889,150
                                                                                                                 Grand Total        $783,024        $62,643           $43,851       $889,518                $782,656    $62,643   $43,851    $889,150
                                                                                                                                                                                                                                                                      Appendix A




Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment
                                                                                                     8
                                                                                                     Does Not include $591,000 of cost and ﬁxed fees billed by Boeing for Book 3.
                                                                                                                                                                                                                                                                      Schedule of Contractor Invoices




                                    Page 15
Appendix B
Purpose, Scope, and Methodology



Purpose, Scope, and Methodology
                    Our objectives in reviewing the Boeing contract were to determine whether TSA
                    properly administered the contract as a cost-plus-award-fee contract, and whether
                    TSA paid disproportionately high proﬁts to Boeing.

                    Our ﬁeldwork began April 7, 2003, and continued through March 2004. We
                    interviewed TSA management and contract personnel, including the contracting
                    ofﬁcer’s representative. We reviewed the contract and all its modiﬁcations
                    through August 2003. We analyzed contract ﬁle documents maintained at TSA’s
                    Pentagon City and Herndon, Virginia ofﬁces. In addition, we reviewed relevant
                    sections of the United States Code, Aviation and Transportation Security Act,
                    Federal Acquisition Regulations, Federal Aviation Administration’s Acquisition
                    Management System, and TSA’s acquisition requirements. We conducted the
                    audit pursuant to the Inspector General Act of 1978, as amended, and according to
                    generally accepted government auditing standards.




Page 16          Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment
                                                       at United States Airports
                                                                                          Appendix C
                                                                                          Management Comments




Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment      Page 17
                                      at United States Airports
Appendix C
Management Comments




Page 18       Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment
                                                    at United States Airports
                                                                                         Appendix C
                                                                                         Management Comments




Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment     Page 19
                                      at United States Airports
Appendix C
Management Comments




Page 20       Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment
                                                    at United States Airports
                                                                                         Appendix C
                                                                                         Management Comments




Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment     Page 21
                                      at United States Airports
Appendix D
Major Contributors to this Report



                      Judy Leonhardt, Director, Management Services
                      William Schroeder, Audit Manager
                      Ruth Blevins, Senior Analyst
                      Beverly Dale, Senior Auditor
                      Stephen Ondrish, Senior Auditor




Page 22            Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment
                                                         at United States Airports
                                                                                              Appendix E
                                                                                              Report Distribution



                     Department of Homeland Security

                     Secretary
                     Deputy Secretary
                     Chief of Staff
                     General Counsel
                     Under Secretary, Border and Transportation Security
                     Acting Administrator, Transportation Security Administration
                     DHS Audit Liaison
                     TSA Audit Liaison

                     Ofﬁce of Management and Budget

                     Homeland Security Branch Chief
                     DHS OIG Budget Examiner

                     Congress

                     Congressional Oversight and Appropriations Committees, as appropriate




Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment          Page 23
                                      at United States Airports
Page 24   Evaluation of TSA’s Contract for the Installation and Maintenance of Explosive Detection Equipment
                                                at United States Airports
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at www.
dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
